No. ________
IN THE SUPREME COURT OF THE UNITED STATES
*****
RASHEIK HARRIS
Petitioner,
v.
UNITED STATES
Respondent.
*****
ON PETITION FOR WRIT OF CERTIORARI TO
THE COURT OF APPEALS FOR THE EIGHTH JUDICIAL CIRCUIT
CERTIFICATE OF SERVICE
Kathryn B. Parish, counsel for respondent and a member of the Bar of
the United States Supreme Court, hereby certifies pursuant to Rule 29.5(b) of
the Supreme Court Rules that, on February 7, 2021, she deposited for
delivery by Federal Express, one copy of the Petition for Writ of Certiorari,
Appendix, Certificate of Service, and Application to Proceed In Forma
Pauperis addressed to Mr. Scott S. Harris, Clerk, United States Supreme
Court, 1 First Street N.E., Washington, DC 20543, and that she forwarded
one (1) copy of the Petition, Appendix, Certificate of Service and Application
to Proceed In Forma Pauperis with first-class postage prepaid to Solicitor

CERTIFICATE OF SERVICE – Page 1

General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave., N. W., Washington, DC 20530-0001.
These documents were also electronically filed with the court, and
electronically served on opposing counsel.
Kathryn B. Parish, attorney for petitioner, further certifies that all
parties required by Rule 29 to be served in this matter have been served.

Respectfully submitted,
/s/ Kathryn B. Parish
Kathryn B. Parish
(Counsel of Record)
Carlyle Parish LLC
3407 Jefferson, #128
St. Louis, MO 63118
(314) 392-0120
Kay@carlyleparishlaw.com

Counsel for Petitioner

CERTIFICATE OF SERVICE – Page 2

